                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM




                   An allegation of plagiarism of figures within an NSF proposal1 was raised against the
         ~ u b j e c tThe
                      . ~ Subject was contacted and responded to the allegation. The Subjectprovided evidence
         indicating that she had received permission from her collaborator and a co-author of the source texts3
         to use the figures. Evidence therefore did not substantiate an allegation of plagiarism.

                   Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
